www.StarOne.org

Visa Credit Card Interest Rates
Compare our Visa credit cards: no annual fee, no balance-transfer fees, and no foreign-transaction fees.

Credit Card Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa Signature Rewards

8.75 %
Visa Platinum Rewards

8.75 % to 12.75 % , based on creditworthiness
Visa Platinum Best Rate

7.75 % to 13.75 % , based on creditworthiness
APR for Balance Transfers

Visa Signature Rewards

8.75 %
Visa Platinum Rewards

8.75 % to 12.75 % , based on creditworthiness
Visa Platinum Best Rate

7.75 % to 13.75 % , based on creditworthiness
APR for Cash Advances

Visa Signature Rewards

8.75%
Visa Platinum Rewards

8.75% to 12.75% , based on creditworthiness
Visa Platinum Best Rate

7.75% to 13.75% , based on creditworthiness
How to Avoid Paying Interest on
Purchases

Your due date is 25 days after the close of each billing cycle. We
will not charge any interest on purchases if you pay your entire
balance by the due date each month.

Credit Card Interest Rates and Interest Charges
For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for,
or using a credit card, visit the website of the Consumer
Financial Protection Bureau.

Fees
Annual Fee

None

Transaction Fees
•
•
•
•

Balance Transfer Fees
Cash Advance Fees
Foreign Transaction Fees
Transaction Fee for Purchases

None
None
None
None

Penalty Fees
• Late Payment Fee
• Return Payment Fee

$10.00
up to $15.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new
purchases)."
Effective Date: The information about the costs of the card described in this application is accurate as of
March 31, 2021. This information may have changed after that date. To find out what may have changed,
contact the Credit Union.

Other Fees and Disclosures:
Late Payment Fee:
$10.00 or the required minimum payment, whichever is less, if you are 10 or more days late in making a
payment.
Returned Payment Fee:
$15.00 or the amount of the required minimum payment, whichever is less.
Minimum Payment Required: The minimum monthly payment will be 2.5% of your outstanding balance or
$20.00, whichever is greater.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is
provided in your Visa Credit Card Account Agreement.
We reserve the right to amend the Visa Credit Card Account Agreement as permitted by law. The above
rates and fees are current as of April 7, 2021.
Fees and APR apply to new cards only. Learn more about our No-Annual Fee Credit Cards. Visit our online
credit-card application.

